Supreme Court, U.S.
FILED

MAR 1 2 2021
OFFICE OF THE CLERK

No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re TERRIL LEE GRAHAM on Habeas Corpus

ON PETITION FOR WRIT OF HABEAS CORPUS
TO THE SUPREME COURT OF CALIFORNIA-S263715
EN BANC

PETITION FOR WRIT OF HABEAS CORPUS

Terril Lee Graham
1351 Los Olivos Ave Apt U.
Los Osos CA 93402
(805)305-9504
Onesufi@yahoo.com

-

mar i $

2021

n
■;

i

rsos

i

i

j
■A

i

.:

(t

•-

’A.

\

:\

\

. .* . r-»C

<£b

J

1

u

.• i

f*
I

>

?

4
■%

ssk

ai

1

•\
• •?

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
s'

4

s

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

10

CONCLUSION

13

INDEX TO APPENDICES
APPENDIX A

Decision of State Supreme Court Denying Review

APPENDIX B

for m Extraordinary Writ of Habeas Cotpus

APPENDIX C

RE: In Re Terril Graham
P 6, 2020. The papers are returned for the following reason(s):

APPENDIX D

California Penal Code 422, Criminal Threats. .....2,5,12

APPENDIX E

ERRATA

;

r'. i

I

•>

APPENDIX F
:

\

;
1

:

\

OPINIONS BELOW

RE; In Re Terril Graham, Petition for Extraordinary Writ of Habeas Corpus,
Supreme Court of the United States, 29 Jan 2021.
In re TERRIL LEE GRAHAM on Habeas Corpus, S263715 Supreme Court of
California En Banc, 28 Oct 2020
In re Terril Graham, on Petition for Remand, SCUS, 15 Jul 2019
In Re Terril Graham, No. 03-5849, Extraordinary Writ of Mandamus and
Prohibition, 1 Dec 2003

JURISDICTIONAL STATEMENT

This extraordinary writ of habeas corpus will be in aid of the court in
deciding the appropriate application of Article I, Section 8.10-11, USC
reserved for Congress, so that a rule of law may become settled. The issues
before this court contained herein are of such an exceptional class that
denial would render impossible any review when State courts have denied
hearing the complaint and no other court remains for the purpose in which
28 USC 2403 (a),(b), and (c) may apply, and original jurisdiction to adjudicate
issues in which a State shall be a party.

1

QUESTIONS PRESENTED
1. Is California Penal Code 422, Criminal Threats, an invalid statute,
prohibiting the exercise of 1st Amendment free speech rights? (In re Robbins
(1988) 18 Cal.4th 770-780).

2. Did the public defender violate due process requirements of the 5th
Amendment by not presenting exculpatory evidence upon discovery? (B.l.
PART II Appendix B, letter Charles Denton).

3. Having completed his terms of office, and with the declaration of the end
of war in Iraq, is former president George W. Bush subject to a declaratory
judgment for his violation of Article I, Section 8.10-11 U.S.C. in his
declaration of war, resulting in violation of his oath to uphold the
Constitution?

4. Has enough public disclosure of evidence accrued through constant
dialogue, expert witness testimony, the findings of FBI investigations, and
Senate impeachment hearings to determine that former president Donald
Trump is guilty of- inciting insurrection and obstruction of justice?

2

LIST OF PARTIES
All parties do not appear on the cover page. A list of all parties is as
follows:
Merrick Garland, Attorney General Room 5614 Department of Justice,
950 Pennsylvania Ave, N.W. Washington D. C. 20530-0001, for Clinton, Bush,
Obama and Trump
Xaviar Bacerra, Attorney General, DOJ, P.O. Box 944255, Sacramento,
California 94244, for Governor Newsome

TABLE OF AUTHORITIES
CASES
People v. Robbins, (1988) 45 Cal 3rd 867

5

People v. Villa, (2009) 45 Cal 1063

5,9

People v. Germany, 133 Cal App 4th at page 791

10

People v. Romero (1964) 8 Cal 4th 728..................

8 13

U.S. v. Moussaoui, 4th Circuit (2004) 382 F 3d 453,464....9
CONSTITUTIONAL AND STATUTORY PROVISIONS
Constitution of the United States
14th Amendment, Section 3
California Criminal Law 107, Penal Code 42

3

2,8,11
11
5, 8

STATEMENT OF THE CASE
Thirty three years ago, after suffering the consequences of defending
myself in a Strategic Lawsuit Against Public Participation, SLAPP, by using
Sullivan v. NYT, I determined that the only way I could successfully attack
the Atascadero government was through litigation. Thirteen years later,
years ago, this Court filed an Extraordinary Writ of Mandamus and
Prohibition. No. 03-5849, in which I announced that I was going “ to include
all the circumstances in which California law, supported by federal
legislation, could be addressed;”, (7 In re Terril Graham, No. 03-5849, (2003)).
The list of respondents included ENRON, for their price fixing, PG&E, for not
filing an Environmental Impact Report prior to building the Diablo Canyon
nuclear power plant, and former president George W. Bush for his violation
of the Constitution in declaring war on Iraq, which lies within the exclusive
authority of Congress. The evening news just announced that President Biden
attacked Syria, 2/25/2021. The old saying is, ‘those who don’t believe history
repeats itself don’t know history’, seems to apply here. Coincidentally I
mailed President Biden the last round of briefing I submitted, that was
returned for clarifications, but that appraised him of my charges against
Clinton, Bush, Obama and Trump for war crimes. ERCOT sounds like
ENRON. Government notified of January 6th attack, and did nothing. Same
thing happened with the Twin Towers. We knew months ahead of time of
the attack through Israeli intelligence reports.
4

During the hearing of Judge Garland, the most troubling recurrent
answer was, “I didn’t read the book, but I read the executive summary.”
Only fourteen Congressmen read the Patriot Act, and it didn’t sound as a
though Judge Garland has read of 9/11 Commission Report, or more
importantly, the 9/11 Follow-up Report, seven months after the first report
due to obstruction of justice, that determined that the particles were so
small that they could only have been caused by high explosives, C4 type.
The follow-up report also included that the pilots were 5 Kurds and 14
Saudi terrorists and the operation had nothing to do with Iraq or
Afghanistan. I’m trying to point out the problem with “common knowledge”. I
thought by now everyone would have known the truth and just set it aside
because they couldn’t handle it in their lives right now, but Coca Cola came
out with a timely program concerning ‘not being so white’, which includes
many of President Biden’s actions, especially concerning Iran and China, and
now Syria. Citizens have become desensitized to aggression, and death. Iran
has consistently complied with IAEA inspections until now, and now they
have announced an end to ‘snap’ inspections; but most importantly, and what
Coke included in their fist of bad traits, was telling people what to do. As a
government we have no right to infringe on other nations sovereignty. Biden
claimed that attacks were launched against American forces in Iraq. They
aren’t supposed to be there. Iraq has asked several times, and has brought
suit in the ICC for the U.S. to be forced to leave.
5

Seven months after I asked the Court, ‘to whom will the Court assign
the preparation of the record?’, the 9/11 Commission Report arrived on the
west coast.

Two weeks later, I submitted an International Criminal Court

appeal, based on the Rome Statute that I’d been studying, and using Rule
20.4(b), SCUS.
“Neither the denial of the petition, without more, nor an order of
transfer to a district court under the authority of 28 U.S.C. 2241(b), is
an adjudication on the merits, and therefore does not preclude further
application to another court for the relief sought.
Following five months of briefing, the ICC lawyers left their response on a
table that is in part preserved in the pieces I saved from the single page,
printed on both sides in English and French. (Part II, APPENDIX RREMAN, Appendix A.l): “Nobody has immunity before the International
Criminal Court. The ICC has jurisdiction over persons aged 18 and above”.
Unfortunately, when president Bush got his copy of my appeal, that I
unfortunately forgot to send this Court a copy, he told Holland he would
attack if the ICC brought anyone there for trial. They were on high alert for
two weeks, that must have been secret because I didn’t know anything about
it. On Christmas day 2004 I went to the airport in Amsterdam and caught
a ticket for Antalya Turkey, on my way to the Arab League in Cairo.
Simultaneously I ended up circumnavigating Turkey by bus, trying to get a
visa for Iran. Never happened so I caught a flight from Istanbul to Cairo.
6

AlJazeera television was the first place I went in Cairo, because they
had approached me in Washington D.C. but I didn’t want to become
involved. The editor faxed my papers to Doha but it took three days before
they told me the first I heard about Bush’s warnings. He had also told
Qatar that if they publicized the writ, he

would attack Qatar. The

encounters with the Arab League started with them saying they hadn’t
received my packet

mailed prior to leaving Holland. Two and a half weeks

had passed since I left The Hague, but it was another two before Amir
Moussa’s secretary welcomed me with dried fruits and tea and

a lengthy

interview. I walked past the hall shown in the “Lawrence of Arabia” movie.
Just being admitted was enough reward for my effort. I have clung to
the idea of just being a messenger, not responsible for anything more. For
obvious reasons none of these agencies gave me a receipt, a habit followed
by many nations I visited. In Argentina the Intelligence Service would only
stamp my writ with a time stamp, without identification. Number 7 only
laughed when I asked him for an official stamp. Their top dogs were
designated as numbers 7 and 8, significant numbers in mystic systems.
Auspicious Numbers; signs of our constitution, cultural signs that have
passed from East to West. From Cairo I went to the port on the Red Sea
to cross to the other side. It ended up being Haj time so there were
thousands of pilgrims camped out on the floor, waiting. Two young ladies
7

introduced themselves to me and eventually told me I could contact Saddam’s
daughter in Amman Jordan. When I arrived in Amman the hotel was full of
American contractors and journalists.

The journalists told me I couldn’t do

it alone, i.e. prosecute Bush, I immediately left for Beirut. When I got to
the border of Syria I lost my taxi ride when they asked for a visa and I
told them I had none. They said it would take ten days to clear, so they
showed me to a room at the 4 Star hotel, the only commercial building on
the site.

After relaxing for a minute, I went back to them and asked them

to fax my case to Damascus for special consideration. Four hours later three
men came to my room and

invited me to come to the office and process

myself for a three day transit visa.

A man shall not be without honor

except in his own land, his own town, and his own family*. Every ultimate
authority I’ve used complained of not being recognized.
This, then, was my modus operandi preparing to enter China. I wanted
to be familiar with all of the philosophies of the Silk Road so I knew what
to attribute to whom, which is why I am presenting such an extensive
APPENDIX.

In the interest of brevity I will rely upon those records for

other details of my journey. Today, 4 March 2021, the House of
Representatives is closed due to domestic terrorist warnings. The Senate
Hearings affirmed, and FBI Director Wray affirmed that the terrorists are
domestic, not international infiltrators .
8

California prisons were under federal investigation while I was there.
Santa Riata Jail is just across the highway from Yahoo in Silicon Valley,
apparently the largest and most technologically advanced in the nation. The
deficiencies in the prisons are largely due to the ‘for profit’ motive. To lower
the cost of guards, we were kept in our cells beyond the officially scheduled
time limits.

Sometimes a whole week would go by that we didn’t even come

out of our cells for meals. In a year, I only went to the exercise yard twice,
and once was for finding a lost prisoner. I was held solitarily for four
months, a condition I favored. I told the other inmates to treat their time as
a retreat. The food was carbohydrate heavy which contributes to lethargy
and more purchases from the commissary run by the Warden’s wife. To
elevate income, transportation transfers were made from the court buses out
of the prison authority, which took three hours in a holding cell with 20
men being designed for ten. Men tried to sleep on the floor but couldn’t
because of no room. Light and trustees were

weapons. If the guards didn’t

make them stop the noise, the trustees were given free reign until 10 P.M.,
when they were supposed to be quiet. They frequently paid no attention so
we could only sleep in short 3*4 hour periods, not enough time for deep
sleep. We were strip searched on the way to court and on our return.
Another holding zone to slow up high population concentrations and give the
guards time to check you back in. How did Kamala make it to VP behind
this?

9

An attorney, whose appointment to represent a criminal defendant on
appeal includes responsibility for habeas corpus representation, has a duty to
investigate factual and legal grounds for the filling of a petition for a writ of
habeas corpus. This duty requires counsel (l) conduct a followup
investigation concerning specific triggering facts that come to counsel’s
attention.”
B. Villa provided authorities defining the responsibility of a defense attorney
to present habeas relief from State officials to determine jurisdiction under
which the case is presented)
“State judges or court [is] judicially appraised that the party is in custody
under the authority of the United States, they can proceed no further. They
then know that the prisoner is within the dominion and jurisdiction of
another government. If he is wrongfully imprisoned, their judicial tribunals
can release him and afford him redress. The critical point is that the writ is
served not upon the prisoner, but upon the custodian.(U.S. v. Moussaoui (4^
Circuit. 2004) 382 F.3d 453,464).
1. The Court of Appeal quotes the Senate Committee on Public
Safety’s analysis; Currently, other than a pardon, no remedy exists for
those no longer in the system to challenge their judgment when they
leqrn that their conviction was obtained in part because of fraud or
10

1

1

•.

•:

:

those no longer in the system to challenge their judgment when they
learn that their conviction was obtained in part because of fraud or
false evidence by a government official. (People v. Germany, 133
Cal.App.4th at page 791“.

•n-rt i

j—l.

i irr-4

« fk A

imt\ T/*t

TT r ! i Tm

KJiAaOjNb run, urtaiNiUNu wrui
A. “ D. Original precedent; declaratory precedent. Some writers
distinguish between judicial deliverances that merely declare
existing law (declaratory precedents) and those that lay down
new law (original precedents). In fact, though, the difference is
one of degree and not of kind; “If we have a case [that] deals with
certain facts by applying an acknowledged rule, we really have
an addition to the rule, because we now know that a certain
kind of fact falls within it, and in the nature of things we can
never have two sets of facts, [that] are precisely similar. No
precedent is purely ‘declaratory’ or purely “original.” William
Geldart, Introduction to English Law 11 D.C.M. Yardley, 9th ed.
:

(1984).

:

Senator Professor Doctor S.I. Hayakawa could not have known-, “What
effect will the intern? have on the legal system?” (11 EW, 03-5849
(2003)), but certainly we can agree that the prevalence of ‘common
’knowledge’, especially of issues concerning our current national crisis,
i

: : li-v

:

:
■

\

*

:

has grown. PBS has a thirty minute report summarizing the Mueller
Report, followed by the live testimony of special counsel Mueller, in
which he clarifies the tradition of not prosecuting a president while in
office. This is the point of entry of this 25th Amendment petition,
contained within the evidence appended at APPENDIX B In re TERRIL
LEE GRAHAM on Habeas Corpus, Supreme Court of California, 28 Oct
2020. In the Section VIII Relief Sought page 34 >
B. “D. President Donald J. Trump should be required to submit his
declaration of inability to serve, to Congress, in accordance with the 25th
Amendment, based on irrefutable, expert testimony included in this prayer,
demonstrated finally with his handling of the coronavirus crisis.”
My conclusion, after being stuck here for four days, is that this is an
original precedent, while the Bush prosecution is declaratory because
president Lincoln was prosecuted but chose not to obey the court’s opinion in
The Prize Cases.
“There are marked differences between the government’s conduct
during the Civil War, during World War I, and during World
‘

War II. One of the main differences is that in the Civil War, the
Lincoln administration relied on presidential authority or on the
orders of the military to curtail civil liberties, while in the
twentieth century wars, the executive branch resorted much more
:

12
\
:

•. .
‘ \

•:

;

to laws passed by Congress.”(219 ALL THE LAWS BUT ONE,
; Rehnquist, (1998)).

I went to Honduras in order to deliver my Extraordinary Writ to the
Supreme Court there. To my knowledge, they were the first American
government to convict a president for crimes to remove him from office, and
the Court had the support of the military to enforce the order. Why it was
so significant the other day when the Chairman of the Joint Chiefs of Staff
assured the American public that the military takes an oath to support the
Constitution, not the executive in charge.

The very next day, Chief Justice

Roberts reinforced the commitment the Supreme Court has in being a non­
political body, ‘not made up of political representatives, but of scholars
dedicated to the proper application of our Constitution.’ We’re working with
21st Century legal theory related to due process. The Clerk in Honduras
was very enthusiastic, and guaranteed me that each justice would receive a
:

copy.

:

•. .

C. A quick review of the form at APPENDIX D developed in order to
make the old 422, rescinded, into a new working document. The problem
being that the form is premised upon overcoming the 1st Amendment with
meaningless data points , “ 4. The threat was so clear, immediate, unconditional
13

;

:

i

:

CONCLUSION
A. “ California’s Constitutional and statutory provisions ensuring the
availability of the writ of habeas corpus similarly derive from the
common law history of the writ and parallel the common law in
function. (People v. Romero (1964) 8Cal4th728,736*740; see Cal. Const.,
art. VI.10; Pen. Code 1473*1508.) As under the common law, the core
purpose of the writ in California is to provide a person in custody
with a vehicle to challenge his custody as unlawful. The legal
mechanism for achieving that core function is its provisions to the
court authority to command the custodian to bring forward the body of
the person in custody and justify his or her continued restraint; “the
writ commands the person having custody of the petitioner, to bring the
petitioner “before the court or judge to bring the petitioner “before the
court or judge before whom the writ is returnable.
My request for a Brady, self* representation motion from public defender
Denton, was my ignorant attempt at acquiring a habeas corpus hearing which
was in part due to the limited availability to the library. Understanding
habeas corpus has taken this final exercise, analogous to Robbins, ibid. My
information requests took a week and 1 was only allowed two questions per
request.
I wish I could think of a good joke, but all that comes to mind is The
Chiefs about the dogs in the road waiting to sense fear, so they can attack.
14

Reminds me of the Grimms’ brothers Fairy Tales.

In his PhD thesis, my

father said humor is the form of prose that allows us to talk of the most .
painful topics. Justice Breyer taught me the importance of maintaining my
sense of humor in ’02.
B. President Elect Biden is on the Colbert Late Show.(l2/18/2020)
“We’re in battle for the soul of the nation. The office of the President
is an office of moral leadership “. When he refers to bad behavior he
says, “that’s not who we are. It’s not who we are as a people”. Almost
50% of us are, apparently. But He’s a man of hope and faith, “where
seldom is heard a discouraging word, and the skies are not cloudy all
day”.
C. “Our system of private liability for the consequences of a man’s
own acts, that is, for his trespasses, started from the notion of actual
intent and personal culpability....The reason which gave rise to the
rule has been forgotten, and ingenious minds set themselves to inquire
how it is to be accounted for. The old form receives a new content,
and in time even the form modifies itself to fit the meaning which it
has received “. Oliver Wendell Holmes, THE COMMON LAW (6 Final
Analysis Extraordinary Writ for Mandamus and Prohibition SCUS No.
03-5849 (2003)).
This extraordinary writ of hab^s corpus should be granted.
Respectively submitted

C
15

Date*

12 March 2021

D. Finally, the completeness of the pleadings included in the Habeas
Corpus appeal to the SCUS, at APPENDIX B, must be adequate or the Clerk
would have notified me of what was missing. He did not, so the document
is admissible.
IV

DECLARATION

I, Terril Lee Graham declare under the penalty of perjury and the laws of
the United States that the record provided for the declaratory judgment
prayed for is true and correct. Dated this 22 day of January 2021, in Los
Osos CA,

Terril Lee Graham
V. PROOF OF SERVICE
On

12 March 2021

I served a copy of this EXTRAORDINARY

WRIT OF HABEAS CORPUS by placing corrected documents, in a sealed
envelope with postage thereon fully prepaid in the USPS in Los Osos CA,
addressed as set forth below:
Office of the Clerk, SCUS, One 1st N.W., Wash. D.C. 20543-001, (202)479-3011
Office of the Clerk, SCC, 350 Me Allister St, SF, CA 94102-3600, (415) 865-7000
Attorney General, Rm 5614 Dept of Justice, 950 Pennsylvania Ave, N.W. Wash.
D.C., 20530

Merrick Garland

Governor Gavin Newsome, State Capitol Suite 1178, Sacramento, CA 95814
Attorney General, Dept, of Justice, P.O. 944255, Sacramento, CA 94244
.

//

!A
.-'Vi- £

Terril Lee Graham
16

/!

